<html>
<title> - [H.A.S.C. No. 115-22]THE EVOLUTION OF HYBRID WARFARE AND KEY CHALLENGES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                         [H.A.S.C. No. 115-22]
 
           THE EVOLUTION OF HYBRID WARFARE AND KEY CHALLENGES

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 22, 2017


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-088                      WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8aedfae5cae9fff9fee2efe6faa4e9e5e7a4">[email&#160;protected]</a>                    
                      
                      
                      
                      
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
TRENT FRANKS, Arizona                MADELEINE Z. BORDALLO, Guam
BILL SHUSTER, Pennsylvania           JOE COURTNEY, Connecticut
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            MARC A. VEASEY, Texas
MIKE COFFMAN, Colorado               TULSI GABBARD, Hawaii
VICKY HARTZLER, Missouri             BETO O'ROURKE, Texas
AUSTIN SCOTT, Georgia                DONALD NORCROSS, New Jersey
MO BROOKS, Alabama                   RUBEN GALLEGO, Arizona
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
BRAD R. WENSTRUP, Ohio               CAROL SHEA-PORTER, New Hampshire
BRADLEY BYRNE, Alabama               JACKY ROSEN, Nevada
SAM GRAVES, Missouri                 A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona              ANTHONY G. BROWN, Maryland
STEPHEN KNIGHT, California           STEPHANIE N. MURPHY, Florida
STEVE RUSSELL, Oklahoma              RO KHANNA, California
SCOTT DesJARLAIS, Tennessee          TOM O'HALLERAN, Arizona
RALPH LEE ABRAHAM, Louisiana         THOMAS R. SUOZZI, New York
TRENT KELLY, Mississippi             (Vacancy)
MIKE GALLAGHER, Wisconsin
MATT GAETZ, Florida
DON BACON, Nebraska
JIM BANKS, Indiana
LIZ CHENEY, Wyoming

                  Robert L. Simmons II, Staff Director
              Catherine Sendak, Professional Staff Member
                 Katy Quinn, Professional Staff Member
                         Britton Burkett, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Chivvis, Dr. Christopher S., Associate Director, International 
  Security and Defense Policy Center, Senior Political Scientist, 
  RAND Corporation...............................................     7
Hoffman, Dr. Francis G., Distinguished Fellow, National Defense 
  University.....................................................     2
Shearer, Andrew, Senior Adviser on Asia Pacific Security, 
  Director, Alliances and American Leadership Project, Center for 
  Strategic and International Studies............................     5

                                APPENDIX

Prepared Statements:

    Chivvis, Dr. Christopher S...................................    59
    Hoffman, Dr. Francis G.......................................    38
    Shearer, Andrew..............................................    51
    Smith, Hon. Adam, a Representative from Washington, Ranking 
      Member, Committee on Armed Services........................    37

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Lamborn..................................................    77
           
       
           
           
           THE EVOLUTION OF HYBRID WARFARE AND KEY CHALLENGES

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, March 22, 2017.
    The committee met, pursuant to call, at 10:00 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. The 
committee meets today to examine the challenge posed by 
unconventional forms of warfare. A variety of terms are used to 
describe it: hybrid warfare, indirect warfare, the gray zone, 
and others. Americans are used to thinking of a binary state of 
either war or peace. That is the way our organizations, 
doctrine, and approaches are geared.
    Other countries, including Russia, China, and Iran, use a 
wider array of centrally controlled, or at least centrally 
directed, instruments of national power and influence to 
achieve their objectives.
    Whether it is contributing to foreign political parties, 
targeted assassinations of opponents, infiltrating non-
uniformed personnel such as the little green men, traditional 
media and social media, influence operations, or cyber-
connected activity, all of these tactics and more are used to 
advance their national interests and most often to damage 
American national interests.
    These tactics are not new. Indeed, as Professor Williamson 
Murray has written, the historical records suggest that hybrid 
warfare in one form or another may well be the norm for human 
conflict, rather than the exception. And this committee has 
examined these issues previously, despite the fact that some of 
these tactics are much in the news these days.
    But I believe these tactics pose a particular challenge for 
us and our system. So I think it is helpful to shine a light on 
them, but also help develop ways that the U.S. can better 
develop capabilities to counter them. That is the topic for 
today's hearing.
    Before turning to our witnesses, I would yield to the 
distinguished acting ranking member, gentleman from Tennessee, 
Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman. As you noted, I am 
standing in for the real ranking member, Adam Smith. And I 
would like to ask unanimous consent that his statement be 
inserted for the record.
    The Chairman. Without objection.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 37.]
    Mr. Cooper. I have no opening statement. I am here to hear 
the witnesses and actually have a real hearing. So I look 
forward to hearing the witnesses' testimony.
    The Chairman. I thank the gentleman. We are pleased to 
welcome Dr. Francis Hoffman, distinguished research fellow from 
National Defense University; Mr. Andrew Shearer, senior adviser 
on Asia Pacific [Security] and Director for Alliances in 
American Leadership Project at the Center for Strategic and 
International Studies; and Dr. Christopher Chivvis, Associate 
Director, International Security and Defense Policy Center, 
senior political scientist, man, y'all got long titles, at the 
RAND Corporation.
    Really, three people I think who can help shine a light and 
help guide us in these challenging issues. I very much 
appreciate all of you being with us. Without objection, your 
full written statement will be made part of the record. And we 
would be pleased to hear any oral comments you would like to 
make.
    Dr. Hoffman, we will start with you.

  STATEMENT OF DR. FRANCIS G. HOFFMAN, DISTINGUISHED FELLOW, 
                  NATIONAL DEFENSE UNIVERSITY

    Dr. Hoffman. Thank you, Mr. Chairman, acting Ranking Member 
Mr. Cooper, and distinguished panelists and members of this 
committee. It is an honor to appear before you once again and 
talk about the threats facing our country. I thank you for this 
opportunity and also the opportunity to appear with my two 
expert colleagues here today.
    Our joint forces and our country must be able to respond to 
challenges across the full spectrum of conflict. Partially 
because of the complexity of this challenge, we are falling 
behind in our readiness today and in the future.
    As the Chairman of the Joint Chiefs of Staff has testified, 
quote, ``We are already falling behind in adapting to the 
changed character of war today in so many ways.''
    Our tendency as a country to ignore forms of conflict that 
are not conventional and kinetic in character has impeded our 
performance in the past and will continue to do so until we 
grasp the full set of conflict types. Without an explicit 
recognition and conceptualization and understanding of these 
types, we are going to remain in a perpetual state of reactive 
adaptation.
    A decade ago, before a subcommittee led by the chairman of 
this distinguished committee now, I outlined a concept and 
hypothesis that General Mattis and I had developed about hybrid 
threats and what we saw as a coming emerging problem.
    That threat was based on the expected convergence of 
irregular forces with advanced military capabilities due to 
globalization and the diffusion of technology. It also 
forecasted that states in a unipolar world, the part we got 
wrong, would come down from high-end conventional capabilities 
and would try to take us on in the middle conflict spectrum 
with proxy forces that they would train and equip.
    The mixture of irregular methods and conventional tools was 
not necessarily new, as the chairman has noted. But we did 
think that the toxic addition of catastrophic terrorism and 
criminal behavior fused in the same battle space might present 
unique challenges for which we are not prepared.
    The war between Israel and Hezbollah in the summer of 2006, 
the evolution of ISIS [Islamic State of Iraq and Syria] over 
the last few years, with encryption, drones, precision 
capabilities, and the ongoing bloodshed in eastern Ukraine, 
suggest that our forecast of hybrid threats in the middle of 
the conflict spectrum, a violent admixture, was not too far 
off. Perhaps imperfect, but not too far off the mark.
    Today, European military analysts and some Americans pushed 
by Russia's examples and behavior, have embraced the hybrid 
threat as a feature of contemporary conflict. Yet the NATO 
[North Atlantic Treaty Organization] interpretation, which is 
pretty predominant now in the literature, is broader and 
different than the methods that General Mattis and I had 
originally depicted.
    They see it as a mixture of military means with nonmilitary 
tools, including propaganda and cyber activity directed at 
below the threshold of armed conflict. And this mixture of 
tools, Mr. Chairman, is what I said is commonly referred to as 
gray zone conflicts in this country.
    And the distinction between indirect gray zone conflicts 
and the violent methods posed by the original depiction of 
hybrid threats should be noted as the key distinction, the use 
of violence.
    The European version of hybrid represents a return to Cold 
War tactics as I understood them when I was trained and 
educated and was commissioned in the 1970s.
    We rely on traditional and legitimate forms of influence 
and competition, but our adversaries are applying more 
ambiguous, illegitimate, and nontraditional instruments of 
statecraft consistent with their culture and previous 
practices, going back almost a century with respect to Russia.
    Such autocratic states have far more options than 
democracies. Mr. Kennan, the architect of containment who knew 
something about the Russians, noted decades ago that ``The 
varieties of skullduggery which make up the repertoire of 
totalitarian governments, are just about as unlimited as human 
ingenuity itself and just about as unpleasant.''
    So Kennan's understanding of the problem was informed by a 
very deep lifelong study of Russia and its preference for 
indirect methods, which I think we see today. Kennan himself 
used the term ``measures short of war,'' which I think is a 
fairly good term to understand where Russia is coming from, and 
its expertise in this area.
    And I have used the same term now in my research at NDU 
[National Defense University] supporting both the intelligence 
community and the chairman. And I think measures short of armed 
conflict or measures short of war relates very well to Russia, 
which has a history of a form of operation they call ``active 
measures.'' And it parallels today's activity pretty well.
    Measures short of war and hybrid conflict have some 
combinations and some common aspects, and particularly the 
combination of methods. Where I see hybrid threats in the 
middle of the conflict spectrum is mixing active regular 
conventional capabilities with irregular methods with irregular 
tactics and crime.
    Measures short of armed conflict is combinations of 
economic corruption, propaganda, disinformation, you know, 
nonmilitary kinds of capabilities combined in a time and place. 
The hybrid threats also use combinations, but it is mostly 
about violent methods being kind of mixed.
    I think an historical case study might help eliminate the 
distinction between some of the terminology. I see the 
competition between Russia, the West, and the EU [European 
Union] over Ukraine's independence as a gray zone kind of 
conflict, a measure short of conflict from 2010 to 2014.
    Mr. Putin attempted to apply indirect forms of influence 
including economic tariffs, corruption, political subversion, 
and disinformation, but Russia failed to be successful at 
intimidating Ukraine's people. And thus Putin had to shift up 
the conflict continuum and use more violent means to be more 
successful, thereby seizing Crimea and invading Ukraine itself.
    The ongoing violence in eastern Ukraine, I see as an 
archetype of what I had imagined as hybrid warfare. An 
integrated design that has produced a costly conflict by mixing 
Spetsnaz special forces, separatists that are basically militia 
or untrained military. We see electronic warfare, we see 
drones, we see long range rockets, and we see some light armor, 
all fused and mixed in the same time and place.
    We also see economic corruption, criminality, control over 
food and employment in the areas as intimidating and 
terrorizing the population. So I see that as a representative 
of a hybrid warfare kind of example, as I saw it a decade ago.
    But today's challenge is recognizing the competition for 
influence that exists in peacetime using measures short of 
armed conflict. In Europe and Asia we are now competing with 
major revisionist powers that are seeking influence and trying 
to undermine the international rules of order and the norms and 
behavior that we have come to establish and tried to be the 
guarantor of for the last two generations.
    We are also competing for the retention of a coalition 
network and a basing structure that we have used for two 
generations to gain and sustain access to key markets and key 
regions of the world and friends, as part of our power 
projection system.
    Our adversaries continue to use illegitimate instruments of 
statecraft. Seizing disputed rocks, seizing and disordering 
borders, to undermine our credibility, to dilute the cohesion 
of our alliances, and to prevent us from sustaining 
international order, on which our core interests and economic 
prosperity benefit from and should continue to benefit from.
    Overall, I think, we are prepared for the violence of 
hybrid threats now after 15 years of fighting irregular 
warfare. But we are not ready for the more indirect methods 
that we need to think about. How do we ensure that forms of 
subversion and disinformation here and abroad are neutralized?
    Who operationalizes our responses to indirect conflict, and 
who counters the propaganda designed to undercut our democratic 
institutions? Who designs and integrates strategic approaches 
in measures short of armed conflict? The NSC [National Security 
Council], the State Department, the CIA [Central Intelligence 
Agency], or our theater commanders? In short, how do we 
organize ourselves to address this challenge?
    We shouldn't underestimate our adversaries. This is not an 
existential form of conflict. But it can create the conditions 
that if we do actually get into a war with somebody after an 
extended period of hybrid threat, that we will fight with fewer 
friends in a position of geographic disadvantage, or a 
coalition that is not as cohesive and effective as it should 
be. So it could set up the conditions for failure in America's 
interest.
    So again, we shouldn't underestimate our adversaries. 
They're full spectrum, we need to understand that conceptually, 
and we need to become full spectrum ourselves consistent with 
our values and democratic principles.
    Thank you again for the opportunity to appear today. I look 
forward to your questions.
    [The prepared statement of Dr. Hoffman can be found in the 
Appendix on page 38.]
    The Chairman. Thank you. Mr. Shearer.

  STATEMENT OF ANDREW SHEARER, SENIOR ADVISER ON ASIA PACIFIC 
SECURITY, DIRECTOR, ALLIANCES AND AMERICAN LEADERSHIP PROJECT, 
         CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Shearer. Chairman Thornberry, acting Ranking Member 
Cooper, and distinguished members of the committee, thank you 
for the opportunity to testify today. Like Russia and China--
and Iran, rather, China is fusing both conventional and 
unconventional capabilities and tactics to waken liberal norms 
and institutions to erode U.S. influence and to impose its own 
security preferences on its neighbors.
    Left unchecked, this trend will undermine the regional and 
global order, endangering the security and prosperity of the 
United States and its allies. China's hybrid warfare strategy 
draws on many of the elements also employed by Russia and Iran, 
exploiting the gray zone created, as the chairman said, by the 
West's binary notion of war and peace.
    Primarily, using paramilitary coast guard and militia 
organizations, while keeping regular military forces back over 
the horizon and combining all of the instruments of national 
power, including sophisticated cyber operations, economic 
incentives and sanctions, and legal and political warfare. Or 
as the Chinese call it, lawfare.
    And over the past decade and particularly since President 
Xi Jinping took office 4 years ago, China has ramped up its 
assertiveness in the Western Pacific.
    By exploiting ambiguity and asymmetry, this incremental 
salami-slicing approach has enabled China to achieve much of 
its political and territorial agenda in East Asia without 
triggering a forceful military response from the United States 
and its allies.
    Beijing calculates that it lacks the military capabilities, 
at least for now, to prevail in an outright conflict at an 
acceptable cost. Instead, it uses capabilities where it has a 
comparative advantage, such as maritime militia and law 
enforcement vessels, some of which are larger than U.S. Navy 
cruisers.
    And it targets objectives like small offshore islands in 
which it believes Washington has little direct stake. Backed by 
its expanding suite of advanced access-denial capabilities, the 
intent of China's creeping militarization of the South China 
Sea is to give itself the ability to restrict U.S. maritime 
forces' traditional ability to project power and support allies 
within the first island chain running from Japan in the north 
through to the Philippines in the south.
    The effect is to complicate U.S. military planning, 
undermine the confidence of regional countries in American 
security commitments, and ratchet up pressure on the U.S. 
alliance system in Asia.
    Sometimes you hear people say that China's facilities in 
the South China Sea aren't such a problem because they would be 
an easy target in a major conventional conflict. With respect, 
that is not the point.
    We are confronting a profoundly different Asia-Pacific 
region if the United States has to contemplate fighting its way 
back into the South China Sea, a vital international waterway 
that carries $5.3 trillion worth of trade annually, $1.2 
trillion of it American.
    To respond effectively to this complex challenge, the 
United States needs to invest in adequate nuclear and 
conventional military capabilities to maintain a favorable 
military balance in the region capable of deterring escalation, 
including attacks against U.S. or allied forces. Credible 
military forces are also vital for resisting coercion and 
shaping a benign regional security environment.
    Rather than reacting piecemeal to each event, the United 
States needs a considered proactive counter-coercion strategy 
that is part of a broader coherent Asia strategy.
    Continuing to deter any further move at Scarborough Shoal 
is particularly important. China's modus operandi is to target 
weak points. Any further significant change in the status quo 
in the South China Sea would feed doubts in the region and 
increase pressure on America's vital alliances in Northeast 
Asia.
    However, an effective U.S. strategy must extend beyond 
military might and overcome the bureaucratic and military 
scenes needed to match China's comprehensive national approach. 
The starting point has to be recognition that the United States 
is already engaged in an intense competition both of interest 
and values in the Western Pacific.
    The outcome will shape not only the future of the region, 
but the United States' long term security and prosperity. By 
building what Dean Acheson called ``situations of strength,'' 
the United States can increase the cost to China of pursuing 
its gray zone strategy.
    It should strengthen existing alliances and network them 
more closely, as well as working with allies to build maritime 
capability and resilience in Southeast Asian countries. The 
United States also needs to continue to champion the rule of 
war in fundamental principles, such as freedom of navigation.
    Secrecy and deniability are part of Beijing's strategy. So 
wherever possible the United States should promote transparency 
about China's activities. This in the intention behind the CSIS 
[Center for Strategic and International Studies] Asia Maritime 
Transparency Initiative.
    Implementing this strategy will require carefully picking 
and choosing which of China's moves to contest, clarifying how 
the United States will respond to deter them, and being 
prepared to accept greater calculated risk.
    Finally, the United States should not cede nonmilitary 
spaces to China either which also seeks to expand its wider 
influence, which is why continuing American leadership on trade 
and investment is so important.
    America's allies are looking for reassurance that America 
has the clarity of purpose to develop an effective strategy. 
And the resolve to carry it through with firmness and 
consistency. Thank you.
    [The prepared statement of Mr. Shearer can be found in the 
Appendix on page 51.]
    The Chairman. Thank you.
    Dr. Chivvis.

 STATEMENT OF DR. CHRISTOPHER S. CHIVVIS, ASSOCIATE DIRECTOR, 
   INTERNATIONAL SECURITY AND DEFENSE POLICY CENTER, SENIOR 
             POLITICAL SCIENTIST, RAND CORPORATION

    Dr. Chivvis. Thank you and good morning Chairman 
Thornberry, acting Ranking Member Cooper, members of the 
committee and staff.
    I think this hearing comes at an important moment in our 
national effort to address hybrid threats, especially from 
Russia. I am grateful for the chance to be here.
    I will start by noting that there are many terms for hybrid 
warfare. Some analysts refer to it as gray zone warfare, others 
competition short of conflict, still others active measures, 
and there are other terms as well.
    Now of course, each of these terms has a slightly different 
meaning, but they all point to one big thing. Moscow has 
developed and deployed its own version of the whole-of-
government approach to achieve its major foreign policy 
objectives. More often than not, this is at the expense of 
America's interests.
    The Kremlin is using hybrid strategies to weaken NATO, 
undermine European unity as a pretext for military action, and 
to influence a range of policy decisions among our allies and 
to do so in ways that complicate and slow down our own ability 
to respond.
    Its use of hybrid strategies is linked to its broader 
military modernization program which has been going on for a 
decade now, and is itself bound up with President Putin's 
determination to challenge and even undermine the American-
built world order.
    So what are the main characteristics of hybrid warfare as 
practiced by Russia? Well there are at least three that come to 
mind.
    First of all, it is population-centric. In other words, it 
focuses on the people of the countries that it targets.
    Second of all, it is persistent. Russian military leaders, 
and I am thinking here, for example, of the current chairman of 
the Russian general staff, Valery Gerasimov, these leaders have 
rejected the idea that a country can be truly at peace in the 
21st century. Instead, they think conflict is ever-present, 
even if it varies in intensity in different places, and at 
different times.
    Third, Russia's hybrid warfare strategies economize on the 
use of kinetic force. This helps Moscow maintain plausible 
deniability, and get inside our decision loop. It is also 
because the Kremlin would actually prefer not to get into an 
outright military conflict with the United States or with NATO.
    So what are the instruments that Russia typically uses for 
hybrid war? Well, there are several, including information 
operations via outlets like RT [Russia Today], cyber tools for 
espionage or for direct attacks on our networks, proxies that 
can range from protest groups to Kremlin-funded motorcycle 
gangs and other thugs, economic influence of various kinds, 
covert action with Russian special forces, military 
intelligence or other operatives, and of course, overt 
political pressure, and military intimidation.
    As we speak, Russian hybrid operations appear to be under 
way in several places of significance to American interests. 
Russia is widely suspected of aiming to influence upcoming 
national elections in two key allied countries, France and 
Germany.
    Russia has been working to undermine stability and project 
power via hybrid strategies in the Balkans. For example, with 
an attempt to stage a coup against a pro-NATO government in 
Montenegro just last fall, only a few months before Montenegro 
was to become the 29th member of the NATO alliance.
    Russian hybrid strategies also extend to countries in 
Central Europe, where Russia has a legacy economic influence, 
especially in the energy sector. Estonia and Latvia are also 
potential targets of Russian hybrid efforts, although they have 
recently strengthened their defenses against these strategies. 
Ukraine, Moldova, Georgia, and other countries along Russia's 
border all remain vulnerable.
    Now, it is true that Russian resources for hybrid warfare 
aren't infinite. And many scholars have also pointed out that 
the Soviets used similar strategies during the Cold War. It may 
also be helpful to draw attention to the fact that Russia views 
many U.S. policies as hybrid warfare aimed against its own 
interests.
    Nevertheless, the reality is that the Kremlin's use of 
hybrid strategies has been growing significantly in the last 
few years and at our expense.
    I think these threats should be treated with greater 
urgency. Hybrid strategies may not have the immediacy of the 
threat from the Islamic State, but if left unchecked, they can 
do equal if not greater damage to American power and interests.
    We need a strategy to combat this effectively, and I have 
laid out some of the bones of such a strategy in my written 
testimony. One is strong interagency coordination. Another is 
effective counter-messaging. Yet another is ensuring that the 
U.S. intelligence community has the resources it needs to get 
on top of the threat in the European theater.
    A successful strategy is also going to mean giving 
America's full support to European anti-corruption and 
institution-building efforts, including defense institution 
building. U.S. special operations forces clearly have a role to 
play here as trainers, but they can also help with counter-
messaging and in other areas.
    Finally, European partners and allies are often the first 
line of defense, and we have to do everything we can to support 
their own efforts to push back against the Kremlin, all while 
recognizing that America itself isn't immune. The process of 
developing this strategy should be led by the National Security 
Council staff.
    Congress' role is in ensuring funding for the related 
institution-building and anti-corruption programs, as well as 
the intelligence collection and analysis requirements. Raising 
public awareness with hearings such as this one is also a very 
valuable contribution.
    We can't necessarily deter Russian hybrid strategies; we 
may be able to deter elements of them, for example, 
cyberattacks. But the key to dealing with this problem is to 
strengthen our defenses and those of our allies. It is 
important to get the balance right between conventional 
deterrence, nuclear deterrence, and addressing hybrid threats.
    Protecting America's interests in Europe calls for strength 
on all three fronts. But of all of these lines of effort, I am 
least confident about our glide path with regard to hybrid 
threats. That is why I am very pleased that you have decided to 
have this hearing today, and want to urge Congress and the rest 
of the U.S. Government to remain seized with this matter. Thank 
you.
    [The prepared statement of Dr. Chivvis can be found in the 
Appendix on page 59.]
    The Chairman. Thank you. And I appreciate the fact that 
y'all have emphasized--maybe we have the longest history of 
dealing with Russia with these tactics, but China is using 
them.
    We didn't quite get to Iran and I want, as the hearing goes 
on, to look at that. Because it seems to me, what is successful 
by one will be picked up and used by others.
    I just want to ask, kind of going back a little bit in the 
history. Some of the press reports recently have talked about 
the Soviet efforts to spread a rumor that the U.S. Government 
was involved in assassinating Martin Luther King, Jr., that 
they spread the rumor U.S. intelligence had created the AIDS 
[acquired immune deficiency syndrome] virus up at Fort Detrick.
    That they used a web of front groups, secret payments to 
activists and articles, to try to prevent our deployment of 
medium-range missiles in Europe in the 1980s, Pershing II and 
Glickmans and so forth. I wonder about recent leaks that we 
have seen from WikiLeaks and others, if that could not be a 
part of this web of activities to destabilize.
    And then, I think, the Emerging Threat Subcommittee had a 
hearing last week, where one of the witnesses had reprinted a 
chart from Russian military doctrine that talked about the goal 
of disorienting the political and military leadership of the 
victim and spreading dissatisfaction among the population.
    And you think about that, and you think about their efforts 
in the past, and what may be happening now. Is that a part of 
the goal of hybrid warfare? To disorient the political and 
military leadership, spreading dissatisfaction?
    Dr. Hoffman.
    Dr. Hoffman. Yes, sir. And, one doesn't really have to go 
into either fictional accounts, or even back to the 1980s to 
see a lot of this in Europe, where I have been focusing most of 
my research of late in the Baltics in the European.
    There are efforts by Russian entities to loan money to 
political parties. They are funding studies to advance their 
interests, to put out issues on climate change, or energy 
usage, that benefit them directly.
    There are very concerted campaigns going on against the 
Swedes and the Finns, to undermine them and separate them from 
NATO. There is some very interesting research by scholars in 
Sweden that is showing this, one of the new aspects of 
disinformation.
    In the old days, the Russians would work really hard to 
bribe somebody to write an article or get a rumor into a 
newspaper in Canada or the United States. And you would hope 
that over a series of months that those articles might get some 
momentum.
    But today with computers and with automated tools and bots, 
I mean, you can put an innuendo into a crummy source on Monday, 
it can be picked up by three supporting news sites on 
Wednesday, and then it gets picked up by 20 or 30.
    And by Friday, some mainstream individual is picking this 
up as a fact and articulating it. And Sweden has been attacked 
on this, and Sweden has been threatened by some aspects.
    There are several cases documented by the German 
intelligence that show that rumors against Mrs. Merkel or 
rumors against German actions with respect to immigrants, have 
been picked up and planted by external sources, probably of 
Russian origin, to attack the German cohesiveness and the 
German political process.
    So we see this kind of activity in the current tense and 
contemporary conflict right now directed against many of our 
allies and all along the periphery. I don't know if it is a 
concerted, integrated, campaign. I don't think Mr. Putin is 10 
feet tall.
    I don't think he is playing three-level chess against us. 
But he has got a lot of checkers games going on simultaneously.
    The Chairman. Mr. Shearer, do you see efforts from China to 
disorient the political and military leadership, and spread 
dissatisfaction among the people, whether it is here at home or 
with countries around China's periphery?
    Mr. Shearer. Mr. Chairman, I think one distinction between 
China's use of hybrid warfare tactics and what we are seeing 
from Russia, is that at least today, China has been a little 
more restrained and a little less aggressive, and it hasn't 
crossed that threshold into the actual use of conventional 
military force, for example, which Russia has, as Dr. Hoffman 
said.
    I think China is using--making very aggressive use of 
lawfare. So for example, its announcement of an air defense 
identification zone in the East China Sea, which it did in 
2013; its rejection of the recent arbitration award in favor of 
the Philippines, which shed doubt over many of China's legal 
claims in the South China Sea; its very assertive use of 
economic sanctions and embargoes, and so on, which we are 
seeing deployed today against South Korean companies for no 
greater offense than the country taking measures in its own 
defense.
    And then finally, something I have seen in my own country, 
unfortunately, which is a more sophisticated influence campaign 
with growing Chinese control over the local ethnic media, for 
example, and also media reports of China-sourced money making 
its way to the major political parties, both sides of politics 
in Australia.
    So, I think a more sophisticated attempt to influence, 
rather than to actually destabilize us, thus far.
    The Chairman. And briefly, Dr. Chivvis, and I realize that 
I am asking you to speculate here a bit. But, these leaks from 
WikiLeaks, Snowden, all of that sort of stuff, it has done such 
enormous damage to our national security. Could that be a part 
of a hybrid warfare effort by Russia?
    Dr. Chivvis. Yes. I mean, it certainly could be.
    The Chairman. Okay. I want to come back to what we do about 
it in a bit, but at this point I yield to Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    I would like to put all three of you on the spot, by asking 
a completely different line of questions. I think too often, we 
assume what has been assumed in the testimony today, that it is 
a U.S. point of view. What if we were to put ourselves in the 
shoes of many of our adversaries, and the way they might view 
us?
    And I do this with intent. I think the first rule of war is 
to understand the nature of the enemy. So what are they 
thinking about us? I would start by questioning the chairman's 
first view that the U.S. has a binary view of war. We are 
either at war or at peace.
    I don't think I need to remind these sophisticated 
witnesses that we really haven't declared a war since what--
World War II. So, these have been varieties of police actions. 
And right now, we are failing to even authorize, properly, 
through a use of force resolution, our current troops that are 
in the Middle East.
    So, we have indulged legally in all sorts of permutations 
of war, whether the Pentagon has acknowledged these formally or 
not. On many other different levels, and I think a lot of this 
is probably paranoia on the part of countries around the world.
    I don't think I need to remind you that, I think, 
traditionally, India even viewed our Peace Corps as a weapon of 
war and refused to allow any Peace Corps volunteers in the 
country of India. Because they were somehow suspect.
    Some countries view our cultural exports as Western 
imperialism. Because it is kind of ironic that in the country 
of Iran, we are more popular there than any other Muslim 
country. Because of the sophisticated Iranian youth, kind of 
like our movies and our books.
    I think some of these countries maybe attribute to us a 
whole-of-government approach which we, in fact, do not have, 
and incapable of projecting. But they still see a unified sort 
of aspect to our policies. And I am not even counting our 
intelligence agencies activities, which have been performing 
during the Cold War, and after the Cold War, things like that.
    Because it is my understanding that Vladimir Putin tries to 
blame us for all sorts of color revolutions, even though we 
probably had nothing to do with the Orange Revolution, or the 
other varieties of color revolutions. So, to me, if we put 
ourselves in the shoes of our adversaries, and of neutral 
countries around the world, it is a much more confusing 
picture.
    Because we may actually be better at some of these things 
than we are giving ourselves credit for. Now, there is some 
bureaucratic slowness, probably, in the Pentagon, for using 
these as formal instruments of U.S. power, but just the lack of 
whole-of-government coordination doesn't necessarily mean we 
are being ineffective.
    So, to me, I would like to try that approach on. And I am 
sorry to upend your testimonies. But to me, it is perhaps a 
more useful analysis than the ones that you have pursued. I 
will start with Dr. Hoffman.
    Dr. Hoffman. I would be glad to respond to that just a 
little bit, sir. It would be naive of me, as an historian, not 
to acknowledge that our actions, say, against Cuba, our actions 
against Iran, perhaps in the 1950s, and some actions against 
Central America don't represent some activity that would be 
considered non-traditional forms of influence operations of our 
own.
    But I do believe that both, particularly Mr. Putin and his 
clique, which are largely from the intelligence community, are 
psychologically positioning themselves to look at the color-
coded revolutions that I don't believe we fomented, I don't 
believe we supported, we may have encouraged, but we certainly 
didn't engage significant resources to push behind.
    I think he is just looking for an excuse to justify most of 
his own actions. But, I know in the Cold War--I am old enough 
to, you know, be a Cold War veteran, and understand that period 
of time, that we, too, played this game under the table in the 
shadow wars, pretty extensively.
    And anybody who has read Mr. Gates' memoirs on shadow wars 
would understand the competition. I, as a young man, had the 
opportunity to travel in the 1970s in East and West Germany, 
and saw the competition between two different forms of 
government, and understand that conflict.
    I think, overall, for humanity and for the West, and for 
the world, that our competition, again, as I close, my last 
sentence, our understanding of the opponent, and our engagement 
of them, consistent with our democratic principles and values 
is the approach that we should be taking. And I think all of 
our strategies probably reflect that.
    I do want to pick up one point that you made about the 
binary nature, and I, in my written testimony, include the 
little chart. But I don't think it is all black and white. I 
think we actually do compete in that space a little bit.
    I do think our adversaries emphasize, under the table, 
illegitimate forms of influence. We see building partnership 
capacity, theater engagement, security force assistance, the 
Defense Cooperative Security Agency, mil-to-mil engagements, 
interactions that we have at NDU with foreign governments.
    You know, we see this, I think, incrementally, and in a 
stovepipe manner, but they are forms of influence, interaction 
with the world, I think, people benefit from. And we might not 
strategically orchestrate that very effectively, but I think it 
is a very positive, a very constructive, a very transparent 
kind of thing.
    So, I think we are involved, but maybe we are not 
strategically, coherently influencing the way we want to in 
certain regions. And that is an area that, perhaps the joint 
world and the NSC can improve our strategic responses, because 
we buy things, sometimes, and I don't think we understand that 
when we are supporting a particular ally and building up their 
military, we think we are stabilizing something.
    But Mr. Putin, he likes that weakness. He wants to see 
peripheral states along the Eastern seaboard to be spheres of 
influence for him. You know, he wants them to be destabilized. 
And that is, I think, something that we need to take to heart.
    We focus, in the military, much on the hardware of the 
Soviet Union, or Russia, today. Its anti-access/area denial 
capabilities,
A2/AD, has become a buzzword in defense. And I think that the
A2/RD, the anti-alliance and the reality denial activities that 
the Russians are up to, is something we need to, you know, to 
push back on.
    So, I take your point. I do believe we are competing, we 
are just not, probably, competing as strategically and 
coherently as I think we do. And we need to understand how the 
opponent sees that. When we build up the Philippines, or work 
with the Vietnamese, clearly the Chinese see that as something 
against their interests, and we need to be transparent and 
understanding about that.
    Mr. Shearer. Sir, with respect to China, I totally agree. 
It is very important to understand their worldview, and what 
they are thinking, and of course, they come to this problem as 
a country with very significant achievements.
    They have dragged hundreds of millions of people out of 
poverty, and they have a history of imperialism in their 
country and so forth, that they feel very strongly, and I think 
there is no question that they feel encircled, if you like, by 
American allies, is how they would put it.
    And therefore, at one level, it is not unreasonable for 
them to look to sort of push back that American influence. What 
has changed, I think, most recently, is that China now has more 
capability to do that, including very sophisticated military 
capabilities.
    And seemingly, under its current political leadership, more 
intent to do that. And I agree that China doesn't want a 
conflict, for the reasons I mentioned in my statement. I think 
the problem, though, is that what China does seem to want, is a 
traditional, 19th century style sort of sphere of influence, 
where the region is organized politically, economically, and in 
security terms, according to its preferences.
    And the real problem is that, in the region, we have an 
order which has worked very well for 70 years, and produced an 
extraordinary period of prosperity and peace, in which China 
has risen so incredibly successfully. And it is a question 
about what sort of region we want in the future it seems to me.
    And the problem here is that if part of the deal and the 
sphere of influence is giving China what it wants, which is 
ultimately an end to the American alliances and the sort of say 
that I am describing in the affairs of regional countries, that 
is a very different region, and I think a very problematic one 
for us all, including for U.S. interests ultimately.
    Dr. Chivvis. Congressman Cooper, you raise an important 
issue, and there is no question about it that Russia sees many 
things that the United States does as hybrid warfare. It said 
so on many occasions. You are absolutely right.
    It views our support for democracy promotion programs as 
hybrid warfare, things like NDI [National Democratic 
Institute], IRI [International Republican Institute], our 
general support to civil society, it all sees as part of a 
broader U.S. hybrid warfare strategy.
    The question for me is always, well, okay. That may be the 
case, but what is the significance from a foreign policy or a 
defense perspective? Because it doesn't change the reality that 
Russia is using these tactics in Europe to undermine American 
interests.
    So whether or not it is true that we do similar kinds of 
things around the world, it doesn't change the fact that the 
Kremlin right now is actively using hybrid warfare strategies 
to work against and undermine things that we have built in 
Europe over the course of the last several decades.
    So I guess my answer is a yes and a no at the same time.
    Mr. Cooper. I know my time has expired, but I would like to 
hope that in your answers to other people's questions you can 
somehow include these two quick thoughts. One, should we kick 
out RT from America?
    And two, when we mention South China Sea troubles, I wish 
we could hear more about creeping Chinese influence in Hong 
Kong, which is probably economically much more significant and 
yet somehow it is not as much in the news.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman, and thank each of you 
for being here today. And a question I want to begin with, Dr. 
Hoffman, and each of you can answer, my fellow Cold War 
veteran. So I am grateful to be with you.
    In recent weeks North Korea has continued to launch 
ballistic missiles off the coast of South Korea in continued 
defiance of the international community. How effective are 
North Korea's hybrid methods in obtaining its strategic goals?
    In addition, what capabilities does the United States and 
its partners have, and allies, to confront the hybrid threats 
of North Korea? And each of you can answer, again, beginning 
with Dr. Hoffman.
    The Chairman. Microphone.
    Mr. Wilson. Mike.
    The Chairman. If you would hit the mike, please?
    Dr. Hoffman. Yes, I am sorry. The North Koreans have never 
really been much of my research base. The only time I have 
explored that was a few years ago after the war with Hezbollah 
the North Koreans had a little bit of chatter about how 
successful Hezbollah was against the Israelis. And there was 
some open source material on how they might adapt their forces.
    And so my discussion on, and research on, North Korea has 
been limited largely to how they have adapted their force 
structure for a post-conflict sort of insurgency. They have 
prepared themselves, you know, if we were to invade North Korea 
or to be involved in a post-regime stability operation, how 
they would conduct a hybrid campaign to attrit us over time. 
And I think they perhaps have even exercised that a little bit.
    But what we have seen of late with North Korea, you have 
got the missile threats, you know, kind of the high-end things, 
intimidating both South Korea, forcing us to invest in the 
theater area missile defense system. They threatened our 
friends in Japan with their missiles.
    The recent assassination in Kuala Lumpur using a weapon of 
mass destruction is something that is of great concern, I 
think, to the security community writ large. It is clearly a 
violation of a norm that we didn't want to see anybody pass. 
And there hasn't been sufficient cost-imposing actions, you 
know, taken yet on the North Koreans.
    We have contained a lot of their nefarious economic 
activity, money laundering, human trafficking. We have limited 
their counterproliferation efforts, which I think is a hybrid 
technique that doesn't get mentioned very much. But they have 
been successful in the past at exporting some missile 
components to adversaries of ours. So that is kind of a 
concern.
    But I don't have anything more direct or specific than 
that. I have been focusing on the Middle East and Europe for 
the last years, and Iran.
    Mr. Wilson. Well, you certainly have addressed every issue 
not being focused.
    Dr. Hoffman. Yes, sir.
    Mr. Wilson. Thank you.
    Mr. Shearer. Yes, sir. Sir, I have spoken mostly about 
China, but North Korea is, in my view, the most acute security 
threat facing us in the Asia-Pacific region. And the answer to 
your question about the hybrid capabilities is, unfortunately, 
they are very effective.
    We have seen them carry out an assassination using a 
suspected nerve agent in another country. We have seen them 
carry out a range of similar actions over many years now, and 
they are very good at it.
    They are very good at acquiring illicit technologies; the 
rate of progress in their missile programs and their nuclear 
weapons program is very disturbing. And they also are very good 
at funding these programs by a variety of nefarious means, 
organized crime, counterfeiting.
    It is extraordinary some of the activities they get up to 
around the world often using their diplomatic missions as 
cover.
    And then finally they have got very advanced cyber 
capabilities, which we saw exhibited in the Sony hack a couple 
of years ago. So their capabilities are very strong.
    On our side, nuclear and conventional deterrence remains 
vital as always. Increasingly important, though, missile 
defense has to be part of that deterrent picture and it is 
vital there that the United States is networking its missile 
defenses more effectively with allies in North Asia especially, 
like Japan and South Korea.
    The alliances generally will be vital in our response to 
the North Korea challenge. I think the idea that we can just 
sort of rely on China to sort out the problem is a mistake and 
rock solid alliances have to be the foundation of our strategy 
for dealing with North Korea.
    And then finally, there is a place for effective, targeted 
U.S.-led sanctions. They have had some success in the past at 
really putting the screws on the North Koreans. And personally 
I think we need to go back there again.
    Dr. Chivvis. I don't think I have anything to add on North 
Korea.
    Mr. Wilson. And thank you very much, Dr. Chivvis.
    The Chairman. Mr. McEachin.
    Mr. McEachin. Thank you, Mr. Chairman. Good morning, 
gentlemen. Isn't it true that international institutions and 
alliances take on heightened importance in a context of hybrid 
threats? For example, the FVEY's [Five Eyes] intelligence 
sharing agreement can only work if there is goodwill and trust 
among the parties.
    First of all, I would like for each of you all to comment 
about the importance of that arrangement, if you would? And 
then share with us your impressions about the administration's 
attitudes towards these institutions and whether they are 
enhancing our alliances or damaging to our security?
    Dr. Hoffman. They are excellent questions, sir. I think I 
alluded in my comment that I think much of the tactics, 
particularly from Russia, but also China are against alliances.
    They are trying to find cracks and seams and actually widen 
them, separate us from them economically, politically, and from 
a security perspective. So I think that is a key commonality, 
particularly with both the Chinese and the Russian activity.
    In my countering hybrid threat strategy, I have an element 
that is about political competition, and it is about 
strengthening and employing all regional organizations and 
legal mechanisms at our disposal. So I would emphasize aspects 
such as the EU, which has an economic, political, and social 
integration aspect that I think helps fight off some of the 
Russian intrusions.
    So I believe that the need to strengthen, sustain 
alliances, and work within alliances is kind of critical. Some 
of the statements that the administration made or before, at 
least maybe in the campaign, I think most of the comments since 
Mr. Trump has been inaugurated, such as his comments about 
NATO, Mr. Tillerson's visit to Munich and to Brussels, Mr. 
Mattis' trip to see the Japanese and also to Munich and 
Brussels have been about the importance of these alliances and 
everybody working together.
    The second aspect of my strategy, also though, does require 
an enhanced alliance capability investments. And Mr. Trump, Mr. 
Mattis, and Mr. Tillerson have been emphasizing to all of our 
allies that the burdens of security and their own capabilities 
need to notch it up a little bit.
    So I think that twin message about the importance of allies 
has been part, I think central to the administration's message 
and also the need to increase their capability levels and 
defense spending levels.
    And I think that two-step message is, judging from the 
latest reports from NATO, that it is being effective. I don't 
know about Asia. Thank you, sir.
    Mr. Shearer. Sir, thank you for your question. As someone 
who started his career as an Australian intelligence officer, I 
have been involved in the FVEY's partnership really for over a 
quarter of a century now. And it is a massive force multiplier 
for us, and I think it has never been as important as it is 
today.
    And as you said, it rests on goodwill and trust rather than 
a sort of more transactional approach. And that, maintaining 
that is critical and it is no secret to anyone on this 
committee that the Snowden revelations, for example, did 
enormous damage to the FVEYs and really were a blow to that 
trust.
    But I think the strength of the arrangement is demonstrated 
by how well it sort of absorbed that shock and continues to 
play such a critical role, really in everything we do around 
all those threats we are talking about today.
    And your point about institutions is spot on as well 
because ultimately this is an normative contest. It is a 
contest about who is going to set the rules. And I don't 
personally believe that in the Asia-Pacific China wants to 
completely demolish the regional order and start again.
    It is not a revisionist power in that sense, but nor is it 
a status quo power. It wants to kind of selectively pick and 
choose rules that it is going to follow.
    And just going back to the earlier point about Hong Kong, I 
mean, I think that is a really good example where Great Britain 
did a deal, if you like, with China in good faith and then over 
time you get this crab-walking away from the deal.
    And for various reasons, not least all about economic 
equities in China, which are very significant, yet somehow we 
are not as vocal in defending our values and our principles as 
we should be.
    So I think strengthening institutions is incredibly 
important. That is why it is really vital, I think, that the 
U.S. remains engaged in Asian institutions like APEC [Asia-
Pacific Economic Cooperation] and the East Asia Summit and with 
ASEAN [Association of Southeast Asian Nations].
    And having just traveled to Southeast Asia I can say there 
is real anxiety out there about, you know, is the President 
going to come to APEC? And will the U.S. sort of drop back its 
level of engagement with Southeast Asia?
    And those countries are looking for a lead and they are 
also hedging. They are also trying to get their minds around a 
world with less U.S. engagement. So it is very important that 
the institutions respect it and engage with them.
    Mr. McEachin. Thank you. My time has expired, and I yield 
back. Thank you, Mr. Chairman.
    The Chairman. Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman.
    Dr. Hoffman, in the NDAA [National Defense Authorization 
Act] for fiscal year 2016, almost 2 years ago, this committee 
noted concern about hybrid and unconventional threats and 
directed the DOD [Department of Defense] to submit a strategy 
for countering unconventional and hybrid threats. 
Unfortunately, to date the DOD has yet to submit or even begin 
to coordinate with other government agencies.
    In our language in that NDAA we also noted that, quote, 
``Most state sponsors of unconventional warfare such as Russia 
and Iran have doctrinally linked conventional warfare, economic 
warfare, cyber warfare, information operations, intelligence 
operations, and other activities seamlessly in an effort to 
undermine U.S. national security objectives and the objectives 
of U.S. allies alike.''
    My question for you is, first, do you agree with this 
assessment still and the need to develop such a comprehensive 
whole-of-government strategy? And second, in terms of 
countering hybrid warfare, are we any closer to linking all of 
our tools and capabilities such as conventional, 
unconventional, economic, cyber, intelligence, and information 
operations in our effort to counter these adversarial threats?
    Dr. Hoffman. In short, no, ma'am. We are not as ready. I do 
agree that the committee's language was necessary. I was in the 
Pentagon working at the time and we actually directed some of 
the similar language. But I am not aware of where the status of 
those reports are.
    There has been a lot of work done by the special operations 
community and the military about unconventional warfare, but I 
think they have a narrower definition. And this is one of the 
problems with hybridity and the Russian approach is that it 
transcends this committee's charter. It goes beyond NATO's 
capability.
    I think one of the reasons I was working with General 
Breedlove on hybridity is that he understood that the challenge 
to Europe went beyond the narrow military charter of itself.
    And I think we need to--one of the advantages of thinking 
of this multidimensionally, the way we have with hybrid 
threats, is that the economic aspects, the political, and the 
informational are more apparent, as they were to General 
Breedlove.
    He understood that the resilience of Europe, the border 
security issues, the immigration challenges, the propaganda, 
aspects of European security that were not under his charter 
was something that he was trying to pull into the conversation.
    And I don't believe we are organized. As I said in my 
series of questions in my oral statement, I believe that the 
organization and the orchestration of our responses needs to be 
more strategically integrated. And I don't believe it is.
    And I don't know where that is resonant. And I don't know 
enough about the covert activities up at Langley to make an 
assessment on that. It has not been my area of focus 
academically.
    Ms. Stefanik. Thank you. Would the other witnesses like to 
add to that?
    Dr. Chivvis.
    Dr. Chivvis. Sure. As I said in my written comments, I 
think the locus for developing this kind of a strategy is the 
National Security Council staff.
    And I would recommend a regular set of meetings at the PCC 
[Policy Coordination Committee] level to establish some kind of 
a national-level strategy. That is how I would start this 
process rather than in the Defense Department itself.
    Ms. Stefanik. Mr. Shearer.
    Mr. Shearer. The only thing I would add is that I think it 
is important that there is an overarching strategy but also 
regional strategies, if you like, because the precise mix of 
tactics and approaches and capabilities that is used in Europe, 
for example by the Russians, is different from what the Chinese 
are doing in the South China Sea and the East China Sea.
    And I think we need to make sure our strategies are 
tailored to the problem.
    Ms. Stefanik. Thank you. My second question is in reference 
to a subcommittee hearing I chaired last week for the Emerging 
Threats and Capabilities Subcommittee. The subject was 
information warfare and counter-propaganda strategies.
    One of our witnesses, former Assistant Secretary of Defense 
Michael Lumpkin, described the State Department as a 19th 
century bureaucracy using 20th century tools against 21st 
century adversaries. Would each of you agree with that 
assessment?
    And since the State Department is so critical to countering 
hybrid threats, what are some of the ways that Congress could 
help here? What are some of the ways that DOD could integrate 
better with State, for example?
    Certainly if State faces significant cuts as the current 
administration proposes, how can DOD help fill that void? I 
would like to get your assessment of what the proper model 
would be.
    Dr. Hoffman.
    Dr. Hoffman. I watched that hearing and read all the 
testimonies, and I was particularly impressed with Mr. 
Lumpkin's. I am not sure that I agree with him that the GEC 
[Global Engagement Center] could be somehow injected with 
steroids in the State Department and that was the proper place 
for it.
    And then when I was preparing my statement I was 
considering, you know, the NSC. On the strategic side I agree 
with my fellow panelists that regional directors do think about 
these matters in a strategic and comprehensive way.
    But I worry about operationalizing the NSC to get into 
something that involves right now economic activity, which is 
difficult the way the NSC is kind of focused on foreign policy 
and military aspects. So again, I am not quite sure where to 
place this.
    We have experimented with a variety of locations and we 
have experimented with things like the National 
Counterterrorism Center. And maybe there is some need for some 
study that some of the studies that you have requested in the 
past that haven't been completed should really examine.
    But this issue of counter-messaging on the propaganda side 
and the disinformation is a key element. It is a major thrust 
that we are not well organized on that needs some investment, 
some pushing.
    It just--whose jurisdiction does all this fit into and a 
method that is seeking to avoid hard surfaces and is looking 
for all those institutional barriers and cracks to kind of try 
to get into. But we are not there and we probably need to push 
the government to respond in some way.
    Ms. Stefanik. Thank you. My time has expired.
    The Chairman. Mr. O'Halleran.
    Mr. O'Halleran. Thank you, Mr. Chair.
    I am sad to hear what you just said about us not being 
organized. It bothers me and it brings to mind our intelligence 
operations prior to 9/11 and the issues that occurred 
afterwards.
    And I still don't know that we are fully there where we 
need to be in that.
    But I am going to take up Mr. Cooper's idea about the South 
China Sea. Throw in there if you have any concerns about the 
Philippines and what containment strategies we can use?
    Start with Dr. Hoffman.
    Dr. Hoffman. I have some grave concerns about the 
Philippines, whether, you know, Mr. Duarte's actions represent 
a change in foreign policy for the Philippines that is 
permanent, whether it is a temporary alteration or an 
aberration in a longstanding--with the Philippines going back 
the better part of this century.
    But I do believe that the Chinese are trying to abet that 
change and they are trying to institutionalize it as much as 
they can, which would limit our ability to have potential bases 
or access in that particular region of the world.
    I am particularly concerned about China's activities with 
the building up of the missile bases and the atolls. I think 
they will continue that. They will continue to push on the 
threshold. They will continue to seize as many islands.
    I think they are going to solve their entire South China 
Sea and energy access as incrementally and as illegally as they 
possibly can over a period of time.
    I think that is their strategy in the region. And to 
undercut us and any potential other ally that we might want to, 
you know, build in the region.
    Mr. O'Halleran. Containment.
    Dr. Hoffman. Yes. Well, again we are not--I don't believe 
we are imposing costs sufficiently either diplomatically or 
economically against the Chinese for the actions they took. 
They have made promises and they have continued to not live up 
to all those promises.
    You know, they have started building up these bases and 
said they wouldn't arm them and they have. And I think they are 
going to continue to do so.
    That is part of, I think, a deliberate strategy of 
misinformation and diplomatic doublespeak that they are going 
to continue for a period of time. But I will have to defer to 
the regional expert in that particular area.
    Mr. O'Halleran. And let us go to the regional expert. Thank 
you, Mr. Chair.
    Mr. Shearer. Thank you for the question, sir. So clearly 
the U.S.-Philippines alliance is going through a difficult 
period and President Duarte has got some very outspoken views. 
Myself, I am concerned about the situation, and I think we need 
to work very hard at it. But I don't think we need to despair 
totally yet.
    I was in Manila a couple of weeks ago. And my impression is 
that the Philippines, like many countries around Southeast 
Asia, wants the strongest possible economic relationship with 
China, and wants the benefits that come from that particular 
investment in infrastructure and so forth, which it needs. But 
it also wants the United States.
    The very clear message to me was that they value the U.S. 
alliance. They know how important it is to them. And their 
military in particular know how important U.S. training, and 
backup, if you like, is. And I think that is absolutely 
critical. Even despite all the noise and the problems, the core 
of U.S. exercises with the Philippines has gone on 
uninterrupted.
    Two or three of them have been cancelled, but more than a 
hundred are going ahead, which is good news. And the enhanced 
defense cooperation arrangements are still intact.
    So, while I don't think we should be complacent, I don't 
think we should sort of give up the Philippines yet either. And 
I do think, as I said in my statement, that it is particularly 
important because of the strategic location of Scarborough 
Shoal, about 150 nautical miles from Manila, that China is 
prevented from moving ahead and doing its dredging an island 
and building another of these 10,000 foot runways which can 
basically station a Chinese fighter regiment.
    So I think, focusing on maintaining deterrence against that 
step is absolutely vital. As is continuing to build up the 
Philippines military's own capabilities, especially their 
maritime capabilities.
    Mr. O'Halleran. Thank you. And I yield back, Mr. Chair.
    The Chairman. Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman and thanks to each of 
you for being here today and for your testimony. In a few weeks 
I will be joining some other members of the committee to travel 
to Eastern Europe to gain a better understanding of the extent 
of these gray zone strategies as Dr. Chivvis articulates.
    And I wonder, based on that, if each of you could 
articulate or help me define what you would determine as the 
crossing of the threshold of war? And also if you could just 
talk for a little bit about what are the best ways that we can 
identify and respond to these actions?
    Dr. Hoffman. We need to work on the educational basis. This 
is something that I included, specifically in figure 1, in 
written testimony where I tried to create what we don't have in 
the American conceptualization of war. We have this black and 
white, or kinds of war. But we don't understand the competitive 
conflicts space.
    So I try to define a continuum and I make a distinction 
between being in conflict with somebody and being at war with 
somebody. And I drew a red line in my chart.
    When you apply organized violence, when you apply lethal 
force to someone, you have crossed over, in my mind, from using 
instruments of conflict into using instruments of war. So 
irregular war and terrorism cross over that line.
    But the activities we see right now where people bump into 
boats, where they intimidate air traffic, where they impede 
into airspace, where they try to corrupt or penetrate with a 
false-front organization, when RT comes in and sets up shop and 
starts spewing a series of rumors, innuendos, and false 
information, you are in conflict with somebody because you are 
contesting and competing for influence and control over either 
population or benefits of being in the area.
    To me that red line is somewhat important. I do believe 
there is a professional domain and jurisdiction for the 
military in the art of war that is applied violence for 
political objectives.
    And then there is broader areas in which other instruments 
play. And that is the conceptual problem we are kind of 
struggling with. We all use the phrase spectrum of war and we 
all use the phrase sometimes continuum of conflict. But nobody 
has ever defined it.
    U.S. joint doctrine is there are two forms. There is 
irregular and there is traditional. And think about the word 
traditional. Traditional defined by us, not in a commonly 
understood, you know, kind of thing.
    So that is the research I have been trying to help the 
chairman who has been interested in this conceptualization 
problem. The chairman recognizes the problem, intellectually 
and conceptually, on how we are educating our officers.
    Mr. Shearer. So that is one way to sort of explain how this 
works in the South China Sea context, is what some analysts 
call a ``cabbage strategy'' from the Chinese. And that is, the 
first thing they will do is move in their maritime militia 
which are fishing boats, unarmed fishing boats. But they will 
coordinate them and sort of convoy them in. They did this with 
about 300 at the same time around the Senkakus.
    Then, if there is a robust response from the other country 
to that, for example their coast guard responds, the Chinese 
will move in their coast guard ships, which as I said, are in 
at least two cases larger than American cruisers. I mean, very 
big; they're warships, except that they are painted white, and 
they are assigned to the coast guard. So that is their next 
layer.
    And then if the other country chooses to escalate again, 
they have got naval forces over the horizon. And so each time, 
what they are doing, is they are putting the onus on the 
Philippines or Japan, either to submit to their move or to 
escalate. So that is the thinking.
    And then where does that become actual armed conflict? Well 
after that there are warships bumping into each other. There 
are warships, you know, signaling each other. There are warning 
shots.
    And a new area is the whole sort of non-kinetics space 
using electronic warfare, lasers, et cetera, to, you know, 
affect the other. So it is a very complicated question, I 
guess.
    And in terms of how we should respond? I think it is really 
important we don't draw false red lines. I think it is 
absolutely critical that we decide where to make a stand and 
then we make a stand. I think we have to be clearer about our 
commitments.
    Sometimes ambiguity is a good thing in strategy. But I 
think we are in a phase in these different regions where we 
need to be clearer about what we will oppose and how we will 
oppose it.
    I think we are going to have to accept more risk, 
calculated risk. But to impose cost, we have to accept more 
risk. We have to tighten our alliances as well.
    Dr. Chivvis. When we are talking about responding we are 
already back on our heels, which is why we need to be defending 
against these things. You can't predict where the next hybrid 
warfare operation is going to occur.
    There are certain characteristics of countries which are 
more vulnerable than others, corruption and historical links to 
Russia, divided populace, where we can at least expect that it 
might occur.
    Mr. Banks. My time has expired.
    The Chairman. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. Thank you to all of 
you for being here. Speaking of being back on our heels, when 
we already have to respond, I wonder if you could comment on 
sort of where we are when we look at the interagency effort or 
response on some of the different levels?
    It is really clear that Russia and China are pretty good at 
hybrid warfare, I think. And excellent in incorporating the 
elements of diplomacy, information, military, and economics.
    And with some of the proposals right now, which would be 
essentially cutting some critical elements--where does that put 
us in terms of trying to make greater headway when we think of 
these different elements?
    And I think you have made a case that, in fact, we do have 
interagency that is working in some of these areas. But my 
concern is will they stop? Will they be underresourced in those 
areas as they have been in the past?
    Could you speak to that and what alarms you within that 
realm?
    Dr. Hoffman. Well the two things that came to mind, the 
organization and being on our back foot and where the new 
administration has some emerging issues.
    I am concerned about our ability to think strategically 
about cost-imposing actions. Particularly in the economic 
domain. Our desire to back out of the TPP [Trans-Pacific 
Partnership] in Asia I think has put us a little bit on the 
back foot from a leadership option.
    It may have been a bad deal economically. It might not have 
been in America's best interest, particularly in a purely 
economic or an employment or a transactional perspective. But 
it is perceived or misperceived in Asia as a withdrawal from 
commitments.
    It is perceived as opening up a vacuum for China, for other 
actors to step into that void. We may do better economically in 
a bilateral arrangement applying our huge market advantages to 
a series of deals over time. But that is going to take a period 
of time.
    So I am concerned that we have lost a little bit of 
maneuver space on strategic leadership, on economic action, and 
that the administration needs to think about that. And I think, 
the new NSC, as it forms up, will have to put that together. 
Along with the economic advisors who are outside the NSC 
structure right now, which I think creates some interesting 
tension organizationally.
    And I am still concerned about our counter-messaging thing 
that Ms. Stefanik brought up in her hearing. We need to, I 
think, respond appropriately both in Asia and in Europe a lot 
better than we are doing. I think there is an organizational 
dilemma there as well.
    Mr. Shearer. As I said in my statement, I think the 
military piece of this is very important, though our strategy 
has to extend well beyond that obviously as you said in your 
question. And diplomacy has to be front and center in this.
    So it is not an either/or that you can sort of take from 
one and give to the other. We do need robust diplomatic 
capabilities and we need to make sure that our diplomatic 
capabilities are adapting to a much more complex world, 
obviously. So that is very important as part of this strategy.
    I completely agree with Dr. Hoffman on the economic point. 
There are two elements of this. One is with regard to China, 
for example, we need to offer countries around the Asia-Pacific 
a compelling economic vision that is not China's.
    And of course, the irony is that that is exactly what the 
Trans-Pacific Partnership did. And that is why I think it is 
such an unfortunate setback. I don't think it is a setback 
forever, I think, you know, we can work out and recover from 
it.
    But it is undeniably a setback because we actually want 
these countries to diversify their economic linkages and not be 
beholden to China, so that China can, you know, stop them from 
entering ports or stop exporting rare herbs to them when China 
chooses to do that. Incredibly important.
    The other economic aspect is we need a more coordinated 
strategy so that we can use the United States economic leverage 
more effectively in response to China's efforts to build its 
influence through things like the ``One Belt, One Road'' 
initiative, but also through targeted sanctions when those are 
appropriate.
    And there may come a time when those are appropriate in the 
South China Sea, for example. So that is very important.
    And then, I think, the other aspect is the communication 
aspect where we have to get our messaging right. And that 
obviously is just harder and harder in this sort of world we 
are living in. But it shouldn't be impossible.
    Mrs. Davis. Did you want to comment----
    Dr. Chivvis. The problem----
    Mrs. Davis [continuing]. The resources in addition to----
    Dr. Chivvis. From our adversary's perspective, from the 
Russian perspective, General Gerasimov, who I mentioned in my 
comments, sees this as a four to one civilian to military 
effort. And I think that is a reality that we need to take into 
account when we think about the resources that we are putting 
towards this.
    Mrs. Davis. Okay. Thank you. Thank you, Mr. Chairman.
    The Chairman. I am sorry, would you say that one more time? 
Sees this as a what?
    Dr. Chivvis. Four to one civilian----
    The Chairman. Oh, four to one.
    Dr. Chivvis. Four to one civilian to military ratio in 
terms of the effort.
    The Chairman. Okay. I am sorry, I just didn't understand 
what you said.
    Dr. Abraham.
    Dr. Abraham. Thank you, Mr. Chairman. Mr. Shearer, I will 
start with you but certainly the other two gentlemen can chime 
in on this.
    I read your testimony and certainly the importance of the 
deterrence of the South China Sea issue is fore and foremost in 
everybody's minds. Heretofore, in the last 18 to 24 months, the 
missteps and misinterpretation of intelligence, or whatever you 
want to call it, simply has not deterred construction and 
militarization of the South China Sea.
    So my question is, hindsight being 20/20, we look back, 
what could have been done differently and what do we need to do 
from this point on if we are going to say ``okay, enough is 
enough''? Where do we go from here?
    Mr. Shearer. Thank you. It is a very good question. There 
has actually--I agree with your broad assessment. We have 
collectively failed to deter China from this kind of creeping 
de facto militarization. I think there is very little doubt of 
that.
    There have been tactical exceptions to that though. Last 
year the media reported that the U.S. had successfully deterred 
Beijing from making a move on Scarborough Shoal through a 
combination of very high-level political messaging and military 
posturing, deployment of A-10s and an aircraft carrier.
    And that changed China's calculations. It ramped up the 
cost of what they were planning to do. And I think, you know, 
that is a good example of what we need to think about going 
forward, including deterring further moves on Scarborough 
Shoal.
    So I think we need to be thinking about our vertical 
escalation options, which we did in that case. And then I think 
we need to be thinking about a broader set of other, if you 
like, horizontal escalation options. And we need to be engaging 
the Chinese and telling them that moving on Scarborough Shoal 
with dredges and so forth is not going to be acceptable.
    And those other steps could include, for example, the U.S. 
making its legal position on claims in the South China Sea less 
ambiguous than it currently is.
    Dr. Abraham. I don't think China would listen to that very 
well.
    Mr. Shearer. I think it is about having a cumulative 
effect. So, I think as I said, at a certain point economic 
sanctions could come on the table if there are Chinese 
companies that are involved in the sort of massive 
environmental damage that is done when these places get kind of 
bulldozed and dredged and so forth. Then sanctions against 
those companies is probably an option.
    And then I think you need to go to the things that China 
values and fears, if you like. And one thing that they don't 
want is closer, sort of encircling alliances around them.
    So I think sending the signal to China that one of the 
United States responses will be to tighten its alliances, 
tighten its alliance with Japan and South Korea and Australia 
and make those alliances more capable and more able to deter 
China.
    Dr. Abraham. Dr. Chivvis, Dr. Hoffman, do you want to 
comment?
    Dr. Chivvis. I will pass on the Asia question, thank you.
    Dr. Abraham. Okay. Let me follow up with a question that 
Dr. Banks had a while ago. We are talking about hybrid warfare, 
using an analogy of they look at it as death by a thousand 
cuts, so to speak. Where do we stop the bleeding militarily? 
Where do we intervene militarily to stop the bleeding to 
prevent the death?
    Dr. Chivvis, I will ask you to start with that question.
    Dr. Chivvis. That is obviously a difficult question and the 
main reason for that is that it is going to be different in 
every case. I think it is going to be difficult to develop some 
kind of a litmus test for when we deploy military forces into 
action, which is again why I emphasize the importance of 
building up our defenses against this. This is one of the 
things that makes this so hard.
    Obviously there is, you can imagine, in any case a point at 
which our interests are so threatened that it becomes justified 
to use large-scale kinetic military force.
    We have spent a lot of time at the RAND Corporation looking 
at different kinds of scenarios in the Baltic States, for 
example. And certainly you can imagine hybrid scenarios in a 
country like Estonia which get out of hand and call for the 
deployment of significant military forces into combat.
    So that doesn't mean that we will always know when that 
comes, which it is good that we are having conversations like 
this to think about it in advance.
    Dr. Abraham. Thank you, Mr. Chairman.
    The Chairman. Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman. So we were talking 
about China and Mr. Shearer, I want to build on that. And I 
apologize, I have multiple committee meetings at the same time 
here. So you may have answered this. But can you expound a 
little bit more on China's strategic goals and how hybrid 
activities help advance those goals?
    Mr. Shearer. Certainly ma'am. I think that the first thing 
I would say is that, at least at the moment, one of China's 
most important goals is to avoid a major conflict with the 
United States. That is not in its plans.
    China wants to continue its rise. Its preoccupations are 
overwhelmingly internal in the sense that it has an 
authoritarian government that is struggling with a slowing 
economy, a number of problems stored up in that economy in the 
financial sector, in loans and so forth, separatist movements 
and so forth, massive environmental problems.
    So its focus is very much internal, but at the same time it 
is a country which in the last decade or so, and much more so 
in the last few years, has been looking to increase its 
strategic space.
    And the problem, of course, is that that means pushing back 
the United States influence and blunting the United States 
ability to project military power forward into the region, 
which has been one of the lynchpins of America's Asia strategy 
for a very long time.
    The other problem of course is that China is rising not on 
its own in its own hemisphere, I guess the way the United 
States once did, but already with Japan, a major power next 
door to it, South Korea and a series of other countries, who 
are all very heavily invested in the U.S.-led order in the 
region and want to see it continue.
    And hence based on all of that, China's strategy is to over 
time squeeze out U.S. influence using its anti-access and area 
denial capabilities to weaken the ability of the U.S. to 
project force, to create doubts in the minds of U.S. allies 
about whether the United States will be there for them when it 
is needed.
    And ultimately, it would like to decouple those alliances 
and have a region where China is very central, where countries 
all around the region have to defer to China's choices about 
how the region is organized politically, economically, and in 
security terms.
    That is their game and the way they are trying to do it, it 
has to be said with quite a lot of success so far, is to stay 
under that threshold of conflict with the United States.
    Mrs. Hartzler. What are some of the hybrid activities that 
they are doing with that? I know I came in and heard you 
shifting to their coast guard, you know, which is kind of a 
gray area.
    Mr. Shearer. Yes.
    Mrs. Hartzler. What are some of the other hybrid areas you 
would say they are employing?
    Mr. Shearer. They are very active in the communication 
space trying to influence domestic opinion using Chinese-owned 
news outlets and so forth. Social media, the internet, they 
have a very sophisticated cyber capability. They are active on 
that front. We talked about the paramilitary piece of this.
    And then economically where, for example, right now they 
are using de facto sanctions against South Korean companies to 
show their displeasure about South Korea's decision to deploy 
the THAAD [Terminal High Altitude Area Defense] missile defense 
system in response to the threat from North Korea. I would say 
that.
    Mrs. Hartzler. Can you build on that as a--we have heard a 
lot about them being very forward-thinking and going into areas 
where typically our allies and buying up hotels, buying up 
areas.
    Can you give more examples of some of their economic 
activities they are doing to try to project their power and 
gain influence?
    Mr. Shearer. Certainly. The main one is what they call the 
Belt and Road initiative, which is this idea of creating a sort 
of network of Chinese-funded infrastructure facilities 
stretching all the way from China through to the Middle East.
    And examples of their purchasing or investing in ports and 
railroads and other critical pieces of strategic 
infrastructure, very often with a dual purpose in mind. So, 
mysteriously, China now has a de facto naval facility next door 
to the U.S. one in Djibouti.
    There was in Australia a couple of years ago the Chinese 
bought a 99-year lease over the Port of Darwin, which happens 
to be the port used by the U.S. Marines to support their 
rotations through Northern Australia. So quite a sophisticated 
long-term strategic investment plan.
    Mrs. Hartzler. My time is up, but is there a map that shows 
all of their different spots where they have invested with a 
table that lists what those are?
    Mr. Shearer. Yes. CSIS actually has a whole project looking 
at that, so I could get that information for you.
    Mrs. Hartzler. Yes. That would be great. Thank you.
    Thank you, Mr. Chairman.
    [The information referred to was not available at the time 
of printing.]
    The Chairman. Let me circle back around to a couple items 
that we have kind of touched on, but first one we haven't 
touched on. Does anybody have any comments about Iran's 
activities that may fall within hybrid warfare?
    Dr. Hoffman.
    Dr. Hoffman. Sir. We did a study. I believe it was 2009 
when Iran was a maritime hybrid threat as opposed to a ground-
based threat. But clearly as an exporter of instability--they 
have an organization called the Quds Force, which is, you know, 
a special operations force that is basically in the business of 
advising foreign military nonstate actors into fairly capable 
hybrid threat actors such as Hezbollah.
    They are in the business of creating instability through 
these hybrid actors that they sustain financially, they give 
advice and training to. But I also looked at Iran's naval 
capabilities.
    They really don't have a conventional navy, haven't bought 
a frigate in 40 or 50 years, and I believe they are out of 
major missiles, but they have bought small boats. They have 
bought foreign boats from Europe.
    They have ad hoc'd navigation and missile systems on top of 
these capabilities. They have some small submarines with 
advanced submarines. They have cruise missiles along the coast. 
They basically fight a hybrid war at sea as part of an exercise 
that they plan to swarm major capital ships.
    They have bought or have acquired a significant number of 
Chinese influence mines. So they have the capability of trying 
to impose costs on us economically by attempting to close the 
Straits of Hormuz and then ambush and raid against any kind of 
naval forces and activity all along their coast.
    So from a maritime perspective definitely a hybrid kind of 
threat in the classical sense, as well as the land projection 
capability. Admiral Stavridis has recently written on hybrid 
maritime threats as well, both in the Baltics where he and I 
were working, and in the Iranian area.
    And Admiral Stavridis has published two articles in the 
Naval Institute Proceedings and one now in the Royal Uniform 
Services Journal in London in this particular area.
    Iran I think is definitely an exporter of hybrid threats 
and multiplying them, and we see Hezbollah now in Syria getting 
some offensive skills that it didn't have in its repertoire 
before.
    They were somewhat of a defensive force with their missiles 
and fighting capabilities in southern Lebanon against Israel. 
But now they are on the march. Whether that is a threat 
multiplier for Hezbollah or weakens them remains to be seen 
what kind of attrition they take over time.
    But definitely Iran is definitely an issue that is worthy 
of study. And there are a variety of experts that I work with 
in the national intelligence community that are focused on 
that.
    The Chairman. Okay. Let me go back to your continuum for 
just a second and where you draw the line, violence, 
nonviolence. Where does the little green men fit in? Because 
they commit violence. They don't have a uniform. They try to 
blend in as, you know, indigenous separatist sort of thing. 
Which side of the line are they on?
    Dr. Hoffman. Well, Crimea is somewhat of a unique case. I 
have actually tried to explore what was the violent count, and 
violence in terms of I am looking at lethality in terms of 
killed in action kind of thing, not in the movement of military 
force.
    In one sense, that is a classical coup de main, a descent 
of a uniformed, organized military force and leadership. I view 
that in somewhat conventional terms, like us rushing into 
Panama where we already had forces.
    The Russians had naval bases, troops, paramilitary. They 
had pretty much infiltrated Crimea. It would be interesting in 
a classified forum to discuss the previous penetration of 
Crimea informationally, cyber, and influence. I believe a lot 
of phone calls, a lot of people were sick that day or didn't 
attend work.
    There was a lot of prep. We missed this in our study at 
military. We kind of start with the enemy order of battle on 
the day the battle began, but if you looked at, in studying 
Czechoslovakia and Hungary, there is a lot of activity there 
going on months before that the Russians do. And that case it 
can be seen as more conventional.
    But they are filling it with some hybrid aspects. The 
ambiguity and the paralysis that they intended, to delay 
anybody responding, certainly to allow people who want to delay 
making a decision, like NATO, to delay and to argue about is it 
really a Russian military force?
    But I look at the troops. I recognize the uniforms. I 
actually know who the units were. I think we even knew who the 
commanders were. We know where they came from. They wore 
Russian helmets with Russian-speaking individuals wearing 
Russian uniforms. They were just missing the patch.
    It is not too unique. And it is very hard to replicate that 
in other places I believe.
    The Chairman. Yes, but, well, I guess that gets to the 
deception part of this. If they slow you down in the response 
then maybe it has achieved its objectives.
    And I would like to ask each of you to comment on the 
benefits and the cost of making public more of these 
activities, because you always have this balance with the 
intelligence community that you don't want to reveal your 
sources and methods. You don't want them to know what you know.
    And yet if so much of hybrid warfare is based on deception, 
shining a light on it and saying the Russians are trying to 
push a rumor that U.S. started AIDS at Fort Detrick. Is it not 
something that we ought to do more of, I will put it that way, 
to shine the light on what they are trying to do on the 
deception to bring that out, I guess, is what I am saying.
    Dr. Chivvis, we will start with you and go the other way.
    Dr. Chivvis. Sure. I would agree that it is probably 
leaning in on this. There is always a balance between 
protecting sources and methods and making things like this 
public. But I think in dealing with hybrid warfare, obviously, 
we may want to move the needle a little bit towards being more 
liberal in terms of what we put out there.
    I think that there is obviously a middle course, which is 
to communicate with our allies about this, and this gets back 
to the question about FVEYs. I mean, the benefits of 
intelligence sharing are both that we gain intelligence from 
our allies.
    Oftentimes they have that important understanding of what 
is happening on the ground that we do not have access to. But 
also we have to be able to tell them when something is 
happening in their own country that they may not be aware of in 
order to get them to take actions that we want them to take. So 
it goes both ways.
    And I think that at least in that middle space the more 
that we can share I think the better.
    Mr. Shearer. Mr. Chairman, I mentioned the CSIS Asia 
Maritime Transparency Initiative. What I think has been good 
about that is it uses commercial imagery and then we show it to 
the world and it has had a remarkable effect in terms of 
exactly what you are speaking about.
    Before we did that, you know, this just wasn't part of 
people's consciousness, and then suddenly you can see these 
enormous islands, runways, hangars, the whole thing. It somehow 
makes it real to people. So I think that is an incredibly 
important part of this.
    We have to protect sources and methods, obviously, but my 
sense is we can lean much further forward than we are in 
information warfare, to call it what it really is. And 
psychologically I think the point here is, going back to your 
opening comment about being at peace and being at war, we just 
don't have our heads in this game.
    And we have been there before. We have done it before, but 
we need to get our heads back in the game quickly, in my view. 
Because otherwise we are not going to make all the sort of 
bureaucratic and budget investment decisions and so forth that 
we really need to build these strategies.
    Dr. Hoffman. I really can't add very much to that, sir, but 
in my strategy for countering hybrid threats the very first 
aspect is an open, transparent, strategic narrative about what 
we are about in terms of a rule-based order, normative values 
and being up front about that. If we could arm our diplomats, 
the U.N. [United Nations] ambassador with some kind of--I don't 
think as much of it is classified as it needs to be.
    But I have already seen our French intelligence allies and 
the German intelligence being very public about the intrusions 
and the information and diplomatic space inside those two 
countries and their elections. They are getting out in front of 
it before the elections.
    The Chairman. Yes. Just a side note, Mr. Shearer, I think, 
for example, the environmental damage done by this island 
building is something that hasn't gotten nearly enough 
attention. I have had people suggest it is the largest 
environmental disaster the world has ever seen. I don't know 
how you measure that, but the point is there is probably more 
that could be done.
    Last question I want to get back to is back to this NSC 
question. You know, part of our concern has been too much 
micromanagement by the National Security Council staffers in an 
operational sense. I have even been around Washington long 
enough to remember Iran-Contra where that was the big issue is 
to what extent the NSC was operational.
    And yet I take the point if this is not a clear sort of 
issue that falls clearly in the Department of Defense, and yet 
we turn to the Department of Defense because they are the most 
capable agency for solving problems. Even though that may not 
be the best way to do.
    Dr. Chivvis, what is your view about this? I mean, I got 
your point on a strategy for dealing kind of across the board. 
That is what the NSC should do. But they shouldn't really be 
micromanaging the details, should they?
    Dr. Chivvis. No. I completely agree. Again, what I was 
recommending was the development of a national strategy for 
this, and I think that the NSC is the right place to do that.
    A, obviously, because that is its responsibility is to 
coordinate, and second of all, because it also signals a level 
of significance and importance to this issue to the other 
agencies in the U.S. Government. And I think that is what we 
need right now.
    The Chairman. Anybody else? Yes.
    Dr. Hoffman. Sir, I have published a study on the NSC as 
advice for the incoming administration, and I was somewhat 
sympathetic about the size of the NSC in the past because of 
the nature of the problems we face. And not because I wanted to 
operationalize the NSC or the White House.
    And I come from the same era of having come to town in 
1983. I understood that period of time and have worked for 
members of the other body who were on the Church Committee as 
well. And I am old enough to remember that.
    But the nature of the problems we have today puts a, 
without the regional architecture that we have in the military, 
I can turn to a PACOM [Pacific Command] or a EUCOM [European 
Command] and get a staff that, you know, does certain things.
    But the rest of the government lacks that regional 
architecture, and I think sometimes what happens with the NSC 
is because there is no other integrating body to both design, 
conduct, assess, and adjust, is that the NSC ends up, you know, 
in that supra kind of role compensating for that.
    And if we had--in my Orbis essay, I suggest that perhaps 
one of our problems is the lack of regional task forces that 
are actually interagency is an architectural problem that would 
resolve that problem for us.
    The Chairman. I will go look at your paper. One of my 
concerns is when an NSC is implementing strategy, I mean, 
implementing policies and they are not developing strategy. And 
unfortunately I think that is what we have had in recent years.
    Do you have other questions?
    Thank you all. I appreciate your insights and your study of 
this very challenging issue for us. With that, the hearing 
stands adjourned.
    [Whereupon, at 11:37 a.m., the committee was adjourned.]

      
=======================================================================



                            A P P E N D I X

                             March 22, 2017

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 22, 2017

=======================================================================

      

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 22, 2017

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. LAMBORN

    Mr. Lamborn. Does DOD have the resources and capabilities needed to 
confront the hybrid threat? How well does DOD prioritize responding to 
this threat?
    Dr. Hoffman. [No answer was available at the time of printing.]
    Mr. Lamborn. Does DOD have the resources and capabilities needed to 
confront the hybrid threat? How well does DOD prioritize responding to 
this threat?
    Mr. Shearer. The defense funding cap imposed by the Budget Control 
Act impedes coherent defense planning and has a deleterious impact on 
U.S. military readiness and investment in future capability. 
Nevertheless, neither resource constraints nor capability gaps are not 
the main impediment to confronting the hybrid threat. The main 
challenges are: 1. Recognizing the nature and scale of the evolving 
hybrid warfare threat in Asia, Europe, and the Middle East; 2. 
Developing tailored regional strategies to counter competitors' 
determined efforts to exploit the ``gray zone'' between peace and war 
to undermine the interests of the United States and its allies; and 3. 
Aligning and concerting not only DOD resources but the capabilities of 
agencies across the U.S. Government to implement those strategies. The 
absence of coherent regional strategies makes it difficult for DOD to 
prioritize relevant capabilities. Within DOD, greater priority should 
be given to the following areas: intelligence, surveillance and 
reconnaissance; cyber; irregular warfare, including special forces; and 
information operations.
    Mr. Lamborn. Does DOD have the resources and capabilities needed to 
confront the hybrid threat? How well does DOD prioritize responding to 
this threat?
    Dr. Chivvis. This is an important question. Although RAND has 
extensive analytical experience in assessing the cost implications of 
challenges like Russia's use of hybrid warfare, we have not yet been 
asked to do so. Here are a few initial thoughts, building on my written 
testimony.
    Allocation of resources for countering Russian hybrid war 
strategies should naturally flow from the strategy for countering 
Russian hybrid war. I have outlined the elements of such a strategy in 
my written testimony, including:
    1.  strong interagency coordination
    2.  appropriate resource allocation for analysis and collection of 
intelligence in the European area of responsibility (AOR)
    3.  support for transparency and anticorruption efforts in Europe
    4.  strategies to push back against Russian influence operations
    5.  effective use of U.S. special operations forces
    6.  support for European efforts to combat Russian hybrid warfare.
    Of these dimensions, the DOD has the lead in effective use of U.S. 
special operations forces and some elements of support to European 
efforts to combat Russian hybrid warfare. It has a role in interagency 
coordination and allocation of resources for intelligence collection--
for example, through Defense Intelligence Agency programs.
    This being the case, the key to ensuring adequate DOD funding for 
countering Russian hybrid war will be adequate funding for U.S. special 
operations forces in the European AOR, DOD intelligence activities in 
the AOR, and necessary funding for building partner capacity (although 
much of the relevant funding in this category is under State Department 
authorities). I note that support to North Atlantic Treaty Organization 
special operations forces could also be valuable in this regard.
    Investments in DOD-related programs needed to counter hybrid 
warfare in Europe should not come at the expense of relevant State 
Department and other civilian programs, and it is important to recall 
that Russian military leaders consider the relevant ratio of civilian 
to military activity to be 4:1 when it comes to hybrid warfare. 
Similarly, funding for hybrid warfare does not obviate the need for 
funding conventional forces in Europe, which are needed to reduce the 
risk of Russian conventional war.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
